                    U.S. DEPARTMENT OF LABOR
                EVALUATION OF GRANT CLOSEOUT
                      PRACTICES APPLIED TO
              JOB TRAINING PARTNERSHIP ACT GRANTS

            GRANTS AWARDED TO THE COMMONWEALTH
                       OF PUERTO RICO

               INDEPENDENT ACCOUNTANTS’ REPORT
              ON APPLYING AGREED-UPON PROCEDURES




                 JULY 1, 1997 THROUGH JUNE 30, 2000



R. Navarro & Associates, Inc. prepared this report under contract to the U.S.
Department of Labor, Office of Inspector General, and by acceptance it becomes a
report of the Office of Inspector General.


                        __________________________________________
                        Assistant Inspector General for Audit
                        U.S. Department of Labor




                                                    Report No.: 04-03-020-03-340
                                                    Date Issued: May 5, 2003


                   R. NAVARRO & ASSOCIATES, INC.
                                                    TABLE OF CONTENTS



ACRONYMS .................................................................................................................................iii

INDEPENDENT ACCOUNTANTS’ REPORT ON APPLYING AGREED-UPON
PROCEDURES............................................................................................................................... 1

SUMMARY OF FINDINGS .......................................................................................................... 2

BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY .......................................... 3

           BACKGROUND ................................................................................................................ 3

           OBJECTIVES, SCOPE AND METHODOLOGY ............................................................. 3

PROCEDURES AND FINDINGS.................................................................................................. 4

COMMONWEALTH OF PUERTO RICO’S RESPONSE AND INDEPENDENT
ACCOUNTANTS’ COMMENTS .................................................................................................. 6

EXHIBIT I – COMPLETE TEXT OF THE COMMONWEALTH OF PUERTO RICO’S
RESPONSE..................................................................................................................................... 8




                                                                      ii
                                  ACRONYMS


CPA    Certified Public Accounting
CFR    Code of Federal Regulations
CPR    Commonwealth of Puerto Rico
DOL    U.S. Department of Labor
ETA    Employment and Training Administration
FSR    Financial Status Report
FY     Fiscal Year
JTPA   Job Training Partnership Act
OIG    Office of the Inspector General
PY     Program Year
SFY    States Fiscal Year
SEFA   Schedule of Expenditures of Federal Awards
WIA    Workforce Investment Act




                                         iii
Mr. Elliot P. Lewis
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor

                       INDEPENDENT ACCOUNTANTS’ REPORT
                      ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures enumerated in the “Procedures and Findings” section of this
report. The U.S. Department of Labor (DOL), Office of Inspector General (OIG) agreed to these
procedures. We completed the procedures solely to assist OIG in evaluating the Commonwealth
of Puerto Rico’s closeout practices for Job Training Partnership Act (JTPA) grants awarded by
the DOL Employment and Training Administration (ETA) from July 1, 1997 through
June 30, 2000.

Management of the Commonwealth of Puerto Rico is responsible for closing JTPA grants in
accordance with applicable regulations and requirements established by ETA. ETA is
responsible for processing and certifying grant closure, and recording final obligation,
expenditure and payment information in DOL’s general ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation
standards established by the American Institute of Certified Public Accountants, and Government
Auditing Standards issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of your office as the specified user of the report.
Consequently, we make no representation regarding the sufficiency of the procedures performed
either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are described in the “Procedures and Findings” section of this
report.

We were not engaged to, and did not, perform an examination, the objective of which would be
the expression of an opinion on the accompanying information obtained from the respective
entities. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to
be, and should not be used, by anyone other than the specified party.



April 11, 2002
                                  SUMMARY OF FINDINGS


The Commonwealth of Puerto Rico (CPR) submitted its Job Training Partnership Act (JTPA)
closeout package to the U.S. Department of Labor (DOL), Employment and Training
Administration (ETA), on December 28, 2000. We identified the JTPA expenditures reported on
the final closeout report, and found that the expenditures reported reconciled to the CPR’s
accounting records. In addition, the final expenditures reported were reasonable based on
amounts previously reported to ETA.

The JTPA program was audited as a major program in the CPR’s single audits for State Fiscal
Year (SFY) 1999 and SFY 2000. The SFY 2000 single audit report included two unresolved
findings pertaining to the JTPA program. In the findings, the auditors indicated that the CPR did
not monitor subrecipients on a periodic basis (at least once a year) and did not reconcile reported
JTPA expenditures to expenditures included in the subrecipient’s audited financial statements.

We visited two subrecipients, and found that final expenditures reported to the CPR’s reconciled
to the subrecipients’ accounting records.

CPR’s Response

The CPR’s response to our draft report is included in its entirety as Exhibit 1 of the report. With
a few exceptions, the CPR concurred with the information presented in this report.




                                                 2
             BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY


Background

The JTPA was enacted in 1982 to provide job training programs which would afford
disadvantaged youth and adults with the training necessary to obtain productive employment.
The JTPA program was repealed on June 30, 2000, when ETA implemented a successor
program, authorized by the Workforce Investment Act. The closeout of active JTPA grants
began in July 1999, with final closeouts due no later than December 31, 2000. Unspent funds
from the PY 1998 and PY 1999 JTPA State grants were authorized for transition into the WIA
program.

All JTPA closeout information is sent to the DOL, ETA, Office of Grant and Contract
Management, Division of Resolution and Appeals. According to 20 CFR, Part 627.485, JTPA
grants should normally have been closed within 90 days after the time limitation for expenditure
of JTPA funds. For PY 1997 grants, the 90-day limitation expired September 30, 2000.
However, in certain instances, ETA extended the reporting beyond that specified in the program
regulations. According to instructions set forth by ETA in the JTPA Financial Closeout
Technical Assistance Guide, final JTPA financial reports for PY 1998 and PY 1999 grants should
have been submitted no later than December 31, 2000.

Objectives, Scope and Methodology

In general, our procedures were designed to determine if: the Commonwealth of Puerto Rico
closed its JTPA grants on a timely basis in accordance with ETA instructions; amounts reported
in the closeout packages and/or the final cost reports were reasonable and supported by the
State=s and subrecipients’ accounting records; and there were unresolved audit findings
pertaining to JTPA awards.

Our agreed-upon procedures include the JTPA funds awarded to the Commonwealth of Puerto
Rico for PYs 1997, 1998 and 1999, and FYs 1997 and 1998. Procedures were applied to grant
activities reported by the Commonwealth and two subrecipients, Right to Employment
Administration and Southeast Consortium, on final closeout reports.




                                               3
                            PROCEDURES AND FINDINGS


1.   Identify the CPR’s JTPA grants to be included in the scope of these procedures, and
     the obligations and final reported expenditures related to each.

     The JTPA grants awarded to the CPR and included in the scope of these procedures are as
     follows:

                                                     Per Grantee Closeout
                                Federal                           Inter-title           Net
                              Obligations      Total reported     Transfers         Expenditures
          Year and Title      Authority        Expenditures       Per FSRs           Computed

      FY 97 IIB                 $ 32,928,677       $ 38,928,575    $            0    $ 38,928,575
      PY 97 II & III F            86,171,685         86,090,381                 0      86,090,381
      PY 97 II EDWAA                144,519            144,519                  0         144,519
      FY 98 IIB                   40,761,613         40,747,067                 0      40,747,067
      PY 98 II & III-F           102,103,755         95,162,622                 0      95,162,622
      PY 98 III EDWAA             31,200,000         27,308,548                 0      27,308,548
      PY 99 IIB & IIC             54,464,419         53,145,577        1,277,547       51,868,030
      PY 99 IIA & IIIF           135,461,096         62,654,660       (1,277,547)      63,932,207
      PY 99 III EDWAA              1,200,000           955,160                  0         955,160
       Total                    $490,435,764       $405,137,109   $             0    $405,137,109




2.   Determine if the JTPA grants awarded to the CPR were closed on a timely basis in
     accordance with ETA instructions.

     The CPR signed the closeout certification on December 28, 2000, which was within the
     time frame established by ETA.

3.   Inspect the closeout information reported to ETA, and determine if the information
     was reasonable in comparison to data previously reported on final FSRs.

     The CPR submitted final FSRs with the closeout package; consequently, there were no
     differences between the FSRs and the closeout. As an alternative procedure, we
     inspected the JTPA reconciliation worksheet prepared by ETA which identified the final
     cost entries required to be recorded in the DOL’s general ledger. This worksheet did not
     identify significant adjustments to previously recorded grant costs. Accordingly, the
     amounts reported on the closeout package are considered to be reasonable based on
     amounts previously reported to ETA.

                                               4
4.   Determine if amounts reported on final cost reports or on the closeout package were
     supported by the CPR’s accounting records.

     We compared the JTPA expenditures reported to the DOL on the closeout package to
     expenditures recorded in the CPR’s accounting records, and found that the amounts
     reported were $835,919 or 0.2% higher than the $405,137,109 recorded in the general
     ledger.

     It should be noted that the CPR passed-through the JTPA funds to 15 other organizations
     throughout Puerto Rico. The CPR contracted a Certified Public Accounting (CPA) firm
     to perform certain agreed-upon procedures to ensure that all 15 subgrantees complied
     with the JTPA closeout procedures. The CPR grant summary represents the total
     expenditures as compiled, revised or reconstructed by the CPA firm.

5.   Select a sample of two final closeout reports submitted by subrecipients to the CPR,
     and determine if the subrecipients’ final JTPA expenditures were accurately
     recorded in the CPR’s accounting records.

     We obtained closeout reports submitted to the CPR by two subrecipients, and compared
     the final expenditures reflected on the closeout reports to expenditures recorded in the
     CPR’s accounting records. In both cases, the final subrecipient expenditures were
     accurately recorded in the CPR’s accounting records.

6.   Obtain the CPR’s single audit reports submitted for the two most recent fiscal years
     available, and identify the JTPA expenditures reported on the Schedule of
     Expenditures of Federal Awards (SEFA). Determine if these funds were tested as a
     major program, in accordance with single audit requirements.

     We obtained the CPR’s single audit reports for SFY 1999 and SFY 2000, and identified
     the total JTPA expenditures reported on the SEFA, $156 million and $118 million
     respectively. The JTPA program cluster was listed as a major program for both fiscal
     years.

7.   Determine if the single audit reports identified reportable conditions, material
     weaknesses, report qualifications, or any other audit issues pertaining to JTPA
     grants that remain unresolved.

     In the SFY 2000 Single Audit Report, the auditors indicated that the CPR was not
     monitoring subrecipients on a periodic basis (at least once a year) and that the CPR did
     not reconcile reported JTPA expenditures to expenditures included in the audited
     financial statements of the subrecipient.




                                              5
8.    Obtain the final cost reports submitted by two subrecipients and determine if the
      amounts reported were supported by the subrecipients’ accounting records.

      We visited two subrecipients, the Right to Employment Administration and the Southeast
      Consortium. For the Right to Employment Administration, we compared the final JTPA
      expenditures reported to the CPR to expenditures recorded in the subrecipients’
      accounting systems and found that the amounts were consistent.

      In the case of the Southeast Consortium, we were informed that the accounting records
      maintained by the subrecipient were not sufficient for purposes of preparing financial
      reports. An accounting firm was hired to reconstruct the costs incurred by this
      subrecipient in order to prepare a final accounting of total JTPA expenditures. Without
      the assistance and reconstruction work performed by the accounting firm, the subrecipient
      would not have been able to submit closeout information. Therefore, for this subrecipient
      we compared final JTPA expenditures reported to the CPR to expenditure summaries
      prepared by the independent accountants, and found that the amounts reconciled.

9.    Obtain the subrecipients’ single audit reports and identify the JTPA expenditures
      reported on the Schedule of Expenditures of Federal Awards. Determine if the
      amounts agree or were reconciled by the single auditors to the expenditures
      recorded in the accounting records.

      We obtained the single audit reports for the years required and for both subrecipients
      visited, and identified the JTPA expenditures reported on the SEFA. We compared the
      SEFA expenditures to expenditures recorded in the subrecipients’ accounting records,
      and found that the amounts reconciled. In the case of the Southeast Consortium, for
      reasons described at procedure 8, we compared the SEFA expenditures to expenditure
      reports reconstructed by the independent accounting firm, and to reports submitted to the
      CPR and found that the amounts reconciled.

10.   Inspect the single audit reports for the subrecipients and determine if there were
      reportable conditions, material weaknesses, report qualifications, or any other audit
      issues pertaining to JTPA grants that remain unresolved.

      Audit reports for the Right to Employment Administration did not contain any unresolved
      findings pertaining to the JTPA program.

      Audit reports for the Southeast Consortium had several findings. The auditors found that:
      trial balances were not completed; a double entry general ledger system was not
      maintained; actual expenditures were not compared to budget; and the accounting system
      did not provide timely and reliable information to permit preparation of cost reports.




                                              6
                COMMONWEALTH OF PUERTO RICO’S RESPONSE AND
                   INDEPENDENT ACCOUNTANTS’ COMMENTS



Commonwealth of Puerto Rico’s Response

The CPR provided a written response to our draft report, dated February 28, 2003, which is
included in its entirety at Exhibit I. The key points provided by the CPR pertain to the single
audit findings presented at procedures 7 and 10, as follows:

1.     The CPR clarified that although subrecipients were not monitored by the CPR in SYF
       2000, an independent accounting firm was hired to provide technical assistance and
       monitor each subrecipient’s JTPA closeout process.

2.     The CPR disputed the single auditors finding that the CPR did not reconcile reported
       subrecipient expenditures with JTPA expenditures included in the subrecipient’s audit
       reports, and indicated that this finding was corrected on the SFY 2001 single audit report.

3.     The CPR indicated that the single audit findings presented for the Right to Employment
       were not related to the JTPA program.

4.     The CPR indicated that while the single audit findings presented for the Southeast
       Consortium were related to financial matters, corrective actions have been requested from
       this subrecipient in connection with the WIA program, and the JTPA expenditures were
       fully reconciled by a contracted accounting firm.

Independent Accountants’ Comments

Our procedures were limited to presenting findings reported in the single audit reports that the
single auditors consider to be unresolved. We understand that management’s perspective for
these findings may differ from that of the single auditors, and that progress may have been made
in resolving these findings since the date of the single audit report provided for these procedures.

We concur that the single audit findings for the Right to Employment were subsequently resolved
as they pertained to the JTPA program, and have deleted these findings from our final report.




                                                 7
                                                                                     EXHIBIT I


                            THE COMPLETE TEXT OF
                      PUERTO RICO’S RESPONSE TO THE DRAFT
                        AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Puerto Rico’s response to our agreed-upon
procedures report, issued to them on February 14, 2003.




                                                8
9
10
11
